Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Use Of Universal Product Numbers For
  Medical Equipment And Supplies




                   JUNE GIBBS BROWN
                   Inspector General

                     NOVEMBER 1999
                      OEI-07-99-00230
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory mission is
carried out through a nationwide program of audits, investigations, inspections, sanctions, and fraud
alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Kansas City office prepared this report under the direction of James H. Wolf, Regional Inspector
General. Principal OEI staff included:

REGION                                              HEADQUARTERS

Michael Presley Barrett, Project Leader             Stuart Wright, Program Specialist
Perry Seaton, Team Leader                           Brian Ritchie, Program Analyst
                                                    Tricia Davis, Program Analyst

 To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                         SUMMARY

PURPOSE
        To provide a descriptive summary of the healthcare industry’s use of Universal Product
        Numbers (UPNs) and their potential use by the Medicare program.

BACKGROUND
        A Universal Product Number (UPN) is a product identifier which is encapsulated in the bar
        code media. A bar code is a medium which allows a number or other information to be read
        automatically by a bar code reader and entered into a computer without having to manually
        type in the data. UPNs can be encapsulated within a number of data structures and can be
        used with or without a bar code.

        All UPNs are variable length alphanumeric strings of either 14 or 20 characters that can be
        used universally as the key identifier on each inventory unit for durable medical equipment and
        supplies. They can also be used as the key identifier to communicate product information
        among all trading partners in the supply chain. A number can be assigned to each packaging
        level (or inventory unit) of each product.

        We based our study on information gathered from manufacturers and suppliers of durable
        medical equipment and supplies who have been using UPNs and bar codes as well as software
        producers and representatives from industry groups.

FINDINGS
Universal Product Numbers Are Currently Used By Some Hospitals, Distributors,
and Manufacturers

        Primary Use -- Supply chain management

        Bar codes are currently being used within the healthcare industry primarily as a mechanism to
        control the supply chain. However, we found UPNs are not used in every situation in which an
        item is bar coded because not all manufacturers assign UPNs to their products. In these
        circumstances, users of bar codes must assign their own proprietary numbers to effectively
        utilize their bar coding systems.

        Hospitals -- Experimenting with bar coding systems

        We identified three hospitals currently using UPNs. They began utilizing UPNs to more
        effectively eliminate waste and overutilization of costly supplies and equipment, assist in
        modifying physician practice patterns, and streamline the patient billing process.

Use of UPNs                                      1                                    OEI-07-99-00230
        Some distributors and manufacturers are currently using bar coding systems

        We identified a number of distributors and manufacturers currently using UPNs to simplify
        ordering systems for customers. At least one large manufacturer also allows customers to find
        products by UPN on their web site.

UPNs May Be Valuable To Medicare If Impediments Can Be Overcome

        Product Identification

        Most industry members agree that UPNs would allow for a number of advantages to both
        Medicare and the industry as a whole by allowing Medicare to specifically identify the product
        being claimed and provide more efficient edits. They would also aid in fraud and abuse
        detection.

        Impediments to effective use of UPNs

        There are a number of impediments that must be overcome if UPNs are to be utilized
        effectively by the Medicare program. For example, a standard national data repository does
        not exist. In those databases that do exist, there is insufficient detail for full identification of
        product equivalencies, and UPNs are not assigned to all medical equipment and supplies.
        Some manufacturers also have concerns about their responsibility to assign these numbers.
        Furthermore, HCFA currently lacks authority to appropriately control the system.

CONCLUSION

UPNs, While Promising, Are Not Ready To Be Adopted By The Medicare Program


        In order for UPNs to be used by Medicare, it will be necessary to:

        S       address the specific impediments discussed above;

        S	      methodically implement important steps in utilizing UPNs, and conduct periodic
                assessment of their viability;

        S	      involve all major players fully in the process, including manufacturers, suppliers,
                distributors, the coding industry and HCFA; and

        S       provide adequate funding for planning and implementing this program.




Use of UPNs                                        2                                       OEI-07-99-00230
                            TABLE                         OF              CONTENTS

                                                                                                                                    PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Universal Product Numbers Are Currently Being Used By Some Hospitals, Distributors and

          Manufacturers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                     Health care entities primarily use UPNs for supply chain management . . . . . . . . 9


                     A few hospitals are currently using bar coding systems . . . . . . . . . . . . . . . . . . . . 9


                     Some distributors and manufacturers use bar coding systems . . . . . . . . . . . . . . . 10


          Users cite a number of concerns about UPNs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          UPNs May Be Valuable To Medicare If Impediments Can Be Overcome . . . . . . . . . . . 12


                     Product Identification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


                     Impediments to effective use of UPNs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Use of UPNs                                                           3                                                    OEI-07-99-00230
                                 INTRODUCTION

PURPOSE

        To provide a descriptive summary of the healthcare industry’s use of Universal Product
        Numbers (UPNs) and their potential use by the Medicare program.

BACKGROUND

        Universal Product Numbers (UPNs) have been in existence for more than 10 years, being used
        for supply-chain management1, pricing, and billing. While most people recognize the bar code
        used on many products, the UPN is not as familiar. It is a product identifier which is
        encapsulated in the bar code media. A UPN can be used with or without a bar code. A bar
        code is a medium which allows a number or other information to be read automatically by a bar
        code reader and entered into a computer without having to manually type in the data.

        To be useful, product identifiers must be unique. This allows systems to distinguish one product
        at a given packaging level from another. Data processing systems are unaffected by whether
        product identifiers are numeric or alphanumeric, descriptive or encoded, or of fixed or variable
        length. This requirement of uniqueness led to the creation of the UPN, a unique identifier
        combining a manufacturer number, item number, and packaging level information. UPNs can
        be encapsulated within a number of data structures or bar codes.

        All UPNs are variable length alphanumeric strings of either 14 or 20 characters that could be
        used universally as the key identifier on each inventory unit for durable medical equipment and
        supplies. The UPN can change if the product’s characteristics, such as labeling or packaging
        changes (i.e., product color, use of a product trade name, or use of a generic name). It can
        also be used as the key identifier to communicate product information among all trading
        partners in the supply chain (i.e., manufacturer, distributor, supplier, provider, and end user).
        Such a number can be assigned to each packaging level (or inventory unit) of each product.
        Modern data systems accommodate all data types efficiently and, provided one adheres to
        basic design conventions for product identifiers, alphanumeric identifiers do not impact data
        processing procedures. Moreover, information such as manufacturer, item number, and level of
        packaging cannot be extracted from this number to identify individual components.


        1
         The term “supply-chain management” refers to the management of the process of manufacturing,
        ordering, distribution, and reordering equipment and supplies utilized by any given company. Because
        many organizations are decreasing or no longer maintaining inventories due to the advent of just-in-time
        inventory control, management of the supply-chain became more important and an increasingly popular
        way to lower costs.

Use of UPNs                                              4                                            OEI-07-99-00230
        The process begins with the manufacturer. First, manufacturers must join one of the two Code
        Councils, the Health Industry Business Communications Council (HIBCC) or the Uniform
        Code Council (UCC). When they do so, they are granted a manufacture number and the right
        to assign a UPN. When manufacturers create new products, or modify existing products, they
        submit a data form to the Code Council of which they are a member. This form contains basic
        information such as the UPN assigned by the manufacturer, the color, name, and unit of
        measure of the product. There is also a field for a description of the product. This field is
        currently 75 characters, but there is discussion to lengthen it to 120 characters. Once this form
        is submitted, the UPN is assigned. HIBCC maintains a database of those UPNs assigned by its
        members. A third party such as a distributor may assign a new UPN to a product if the
        distributor repackages the product with their name on the package. In this case, they become a
        labeler and therefore may be able to assign a new UPN to a product.

        Once a UPN is assigned, the manufacturer generally bar codes the related products. This bar
        code is then scanned by distributors when they receive the package and entered into their
        computer system. They forward the product to the provider which also scans the bar code
        thereby entering it into its computer system. When the product is used by the provider, it scans
        the bar code at the time it is furnished to the beneficiary. This enters the UPN into the
        computer system and tells the computer that one product of this type has been used. In the
        case of just-in-time inventory management, the item is also entered into the reordering system,
        which takes the UPN and returns it in the form of an electronic purchase order to the
        distributor. It forwards the item to the manufacturer which in turn ships out a new product. In
        cases where the provider maintains an inventory, a count of all products is kept on the
        computer system and when the UPN is scanned, it removes one unit of the product from that
        inventory count. When the computer system hits a reorder point, the electronic form is
        produced and submitted to the distributor for filling which then submits the order to the
        manufacturer for shipment of the products. Most organizations use a combination of just-in-
        time inventory control and maintaining a small amount of inventory. Unique identifiers such as
        Universal Product Codes (UPCs) have facilitated the move to just-in-time inventory control in
        retail stores and chains.

        Both code councils use a product “look-up” because it is faster, error-free, and provides a
        reliable source for validating the product identifier after it has been put into the system. This
        means that the system utilizes tables keyed to the complete identifier to look-up either
        component or supplementary information about the product represented by it. To do this
        “look-up,” a repository for all UPNs is needed. This repository is meant to be a master catalog
        of all medical surgical products containing basic data elements such as UPN, manufacturer
        name, description, item number, color, unit of measure, and quantity associated with the unit of
        measure. It is a single place to collect and redistribute the information necessary for the
        healthcare industry to cross-reference manufacturers’ part numbers to UPNs.




Use of UPNs                                      5                                     OEI-07-99-00230
Problems Identified by The General Accounting Office

        The General Accounting Office (GAO) issued a report on UPNs in 1998.2 According to the
        report, “[the Health Care Financing Administration] does not know specifically what Medicare
        is paying for when its contractors process claims for... [durable medical equipment and
        supplies]” and, it noted that Medicare reimburses large suppliers and individual beneficiaries at
        the same rates without regard to discounts many manufacturers give suppliers. Furthermore, it
        noted that Medicare pays approximately $4.6 billion a year for medical equipment, but the
        problem with the current system according to the UPN supporters is the manner in which it is
        paid. Medicare’s payment rates are based on broad product categories called billing codes.
        These codes can contain medical items with more than one price. Within each billing code,
        Medicare pays an average cost based on a complicated formula that essentially averages the
        price so that some products are overpaid and some are underpaid. For example, the GAO
        report stated that there are more than 200 types of catheters. These range in price from $.42
        to $34.95. Medicare paid a little more than $11.00 for each due to the limitation with their
        current coding system. The GAO raised as a possible problem the fact that there is an
        incentive for a hospital to use a $1.00 catheter, submit a claim, and be reimbursed over $11.00.

Legislative Action on UPNs

        Following the issuance of the GAO report, legislation was introduced in both the Senate and
        the House (S. 256 and H.R. 418) which would require the use of UPNs on all Medicare DME
        claims submitted for payment. The legislation would require that the UPN be accommodated
        on Medicare claim forms by February 1, 2001. It further requires the Secretary to review the
        UPN covered items billed under the HCFA “Common Procedure Coding System and adjust
        such coding system to ensure that functionally equivalent UPN covered items are billed and
        reimbursed under the same codes.” No payment would be made for “any claim for
        reimbursement for any UPN covered item unless the claim contains the universal product
        number of the UPN covered item.”

        The system proposed by the legislation would conceivably initiate a new process of
        reimbursement whereby technology currently being used in most stores would be implemented
        to capture the specific item claimed and then pay the price of the medical equipment or supply.
        HCFA, in its comments to the GAO report, stated that there is insufficient information to make
        the UPN useful to claims processing decisions. It also indicated that “if HCFA required the
        submission of UPNs, it would not have the authority to require manufacturers to reveal what
        each UPN represents [such as product features, manufacturers’ price, purpose and uses of a
        product, HCPCS code with which the UPN would be associated, and the number of items per



        2
         Medicare, Need to Overhaul Costly Payment System for Medical Equipment and Supplies,
        GAO/HEHS-98-102.

Use of UPNs                                          6                                          OEI-07-99-00230
        package.]” They also stated that it is possible manufacturers would consider such product
        information proprietary and resist any voluntary requests for information.

Healthcare Electronic Data Infrastructure Coalition

        The Healthcare Electronic Data Infrastructure Coalition (HEDIC) is an organization whose
        stated mission is to “improve the efficiency of business interaction through the collaborative
        development and optimization of the Electronic Data Infrastructure (EDI) in the healthcare
        industry. This ‘infrastructure’ includes the use of Bar-Codes, Automatic Identification and Data
        Capture, Electronic Data Interchange, Electronic Commerce, and Central Industry Data
        Repositories based on the adoption of universal identification, codification, communication and
        data standards...”[sic]. HEDIC is composed of healthcare providers and their trading partners
        such as healthcare plans, suppliers, data communications services, software developers,
        consulting services, employers and government agencies.

Uniform Code Council

        The Uniform Code Council, Inc.’s (UCC) purpose is “to take a global leadership role in
        establishing and promoting multi-industry standards for product identification and related
        electronic communication. The goal is to enhance supply chain management thus contributing
        added value to the customer.” The European Article Numbering Association International
        (EAN) and the Uniform Code Council, Inc. are voluntary standards organizations that manage
        the EAN/UCC system. EAN International has a decentralized structure with a membership
        composed of Numbering Organizations that manage the EAN system in a particular country or
        economic region. The UCC manages the numbering system for the U.S. and Canada. The
        EAN International's head office is responsible for coordinating and facilitating activities that deal
        with the development, management and promotion of the EAN/UCC system amongst the
        Numbering Organizations.

Health Industry Business Communications Council

        The Health Industry Business Communications Council (HIBCC)was founded in 1984 by the
        provider community and its trading partners for the specific purpose of creating a bar code
        labeling standard to meet the needs of hospitals. There were two barriers that inhibited use of
        the technology: (1) there was no standard which accommodated unique product numbering
        schemes prevalent in healthcare; and (2) the high cost, bulk, and inflexibility of bar code
        equipment.

        The HIBCC labeling standard provided flexibility to accommodate various data structures,
        thereby solving the first impediment. Low cost code scanners capable of reading multiple types
        of symbologies and inexpensive high-speed computers capable of storing and retrieving huge
        volumes of information contained in databases have solved the second. The HIBCC and the


Use of UPNs                                       7                                     OEI-07-99-00230
        Uniform Code Council (UCC) have together provided labeling standards that address the
        needs of almost all manufacturers.

Department of Defense

        About 5 years ago the Department of Defense (DOD) abandoned depot facilities and

        commercial distribution centers. During this process they looked to commercial sector

        distributors to obtain information on products that did not vary much between distributors and

        product with similar qualities from different distributors. DOD’s process of ordering by part

        number was not satisfactory because each manufacturer uses their own numbering system. The

        DOD needed to use one number for distribution, ordering, and processing shipments

        electronically and it needed to be globally recognizable and unique to the product and its

        packaging. It tapped into use of the UPN which it found successful in inventory control and

        purchasing.


        Currently, there are different levels of compliance by DOD vendors. At the shipper level (i.e.,

        where the main distributor purchases from the manufacturer directly) there is 75 percent

        compliance, but over 95 percent compliance for high volume items. There is less compliance as

        the packaging is reduced to the box level and then to the unit of use level. This is what

        supporters of UPN legislation hope to fix by requiring the coding of smaller packages or even

        the individual items. This could mean more expense for manufacturers. 

        The DOD has tested for vendor compliance with its ordering system and has found that

        distributors can accept UPNs. It purchases items by the case lots from manufacturers directly

        then break it down to the box level for customers. However, it believes that legislation should

        require UPNs at every level of packaging. Since 1995, the DOD has been asking

        manufacturers to do this. However, it has limited power to require it because its purchases

        represent only 4 percent of the market. 


METHODOLOGY

        As part of our development, we carried out extensive research into UPN literature, including
        various articles and product information. We also conducted interviews with a number of
        manufacturers and suppliers of durable medical equipment and supplies who have been using
        UPNs and bar codes, as well as software producers and representatives from industry groups,
        to obtain perceptions of the use of these designations for various programs, particularly claims
        processing and adjudication. Sources of referral for interviews came from industry contacts,
        Federal and State agency discussions, UPN-related conference attendance, and user
        references. We conducted this inspection in accordance with the Quality Standards for
        Inspections issued by the President’s Council on Integrity and Efficiency.




Use of UPNs                                      8                                    OEI-07-99-00230
                                    FINDINGS

Universal Product Numbers Are Currently Used by Some
Hospitals, Distributors, and Manufacturers
Health care entities are primarily using UPNs for supply-chain management

        Currently bar codes are being used within the healthcare industry primarily as a mechanism to
        control the supply-chain. However, we found UPNs are not used in every situation in which an
        item is bar coded because not all manufacturers assign UPNs to their products. In these
        circumstances, users of bar codes must assign their own proprietary numbers to effectively
        utilize their bar coding systems.

               <	
               <      Manufacturers are assigning UPNs to some products.
                      According to HEDIC, healthcare manufacturers of medical/surgical supplies are
                      already bar coding a UPN on about 70 percent of shipping cases. The
                      percentage decreases as packaging levels decrease to box and unit of use. A
                      few of the larger manufacturers, however, are bar coding up to 95 percent of
                      their products at all packaging levels. The remaining 5 percent are not bar
                      coded due to transitions in the companies such as recent acquisitions or
                      mergers.

               <	
               <      Distributors and providers encourage manufacturers to bar code
                      products.
                      Two providers told us that the efficiencies gained in their system paid for their
                      bar coding system within 5 months of implementation. Distributors and
                      providers are the most frequent users of bar codes. They use bar codes (with
                      and without UPNs) to track orders, increase/decrease inventory, and submit
                      orders. One organization representing the distributor industry told us that many
                      distributors would be willing to bar code items if HCFA requires their inclusion
                      on Medicare claims.

A few hospitals are currently using bar coding systems in supply-chain
management and patient care

        We identified three hospitals currently using UPNs. They began utilizing them for the following
        reasons:

               <	
               <      To more effectively provide services to beneficiaries, while operating
                      with fewer resources.


Use of UPNs                                     9                                    OEI-07-99-00230
                      Due to competition and other factors, hospitals are attempting to eliminate
                      unnecessary costs which has led to streamlining the supply-chain.

               <	
               <      To eliminate waste and overutilization of costly equipment and supplies.
                      One hospital uses their bar coding system to determine what supplies a
                      particular disease code uses 95 percent of the time. These supplies are then
                      packaged together and delivered to the unit where needed. This has eliminated
                      multiple trips to unclean areas (e.g., hallways, store rooms), resulting in
                      improved patient care. Supplies are still maintained for atypical cases allowing
                      the hospital to adjust products as practice patterns or patient needs require.

               <	
               <      To assist in modifying physician practice patterns.
                      Another hospital provides physicians with information about the supplies they
                      utilize during particular procedures. When a physician is found to be utilizing
                      equipment or supplies that are not cost-effective, staff and physicians meet to
                      discuss whether those items are the most appropriate. This often results in
                      changes in physician practice patterns.

               <	
               <      To streamline the billing process.
                      A third hospital wanted a more automated system which would require fewer
                      employees, fewer mistakes in data entry, and greater accuracy. This hospital is
                      using bar codes to enter charge codes into an electronic form which is then
                      submitted for payment and printed and sent to the patient. The proprietary
                      number used by the hospital is linked to a plain language description of the
                      service which assists patients’ understanding of the bills they receive. This
                      hospital is not, however, using UPNs, nor is it planning to do so at this time.
                      Instead they are focused on patient billing.

Some distributors and manufacturers are currently using bar coding systems

        We identified some distributors and manufacturers currently using UPNs. At least one large
        manufacturer allows customers to find products by UPN on their web site.

               <	
               <      Distributors use UPNs to simplify their order systems for customers.
                      HIDA told us that many distributors are beginning to use UPNs to aid
                      customers in purchasing medical equipment and supplies. UPNs also help them
                      track orders in their own inventory systems. The organization is encouraging
                      the use of UPNs because they see the industry as moving toward their use.
                      One industry group reported distributors are currently bar coding 70 percent of
                      shipping and inner packs, but only 25 percent at the unit of use level. Many are
                      already making changes to their ordering systems to accommodate bar codes
                      and they point out that the American National Standards Institute already has a
                      space for UPNs on their insurance claims forms.

Use of UPNs                                    10                                   OEI-07-99-00230
               <	
               <      Some manufacturers are assigning UPNs to their products.
                      Some larger manufacturers are assigning UPNs to their products and at least
                      one uses UPNs as a look-up number on their web site.

Users Cite a Number of Concerns about UPNS
        Some users, mainly larger hospital systems, have concerns about bar coding systems and
        UPNs. Some manufacturers also have concerns centering on their responsibility to assign these
        numbers.

               <	
               <      Hospitals cannot require their suppliers to bar code products.
                      As a consequence, hospitals and other providers using bar codes for inventory
                      control, utilization, and reordering purposes assign their own codes and affix
                      bar codes to these products. This results in additional costs to the hospitals and
                      other providers. However, costs associated with product coding should be less
                      for a manufacturer capable of working it into their packaging system. Two
                      hospitals said they were willing to absorb added cost from manufacturers for
                      UPN and bar coding of products and supplies.

               <	
               <      Implementation of UPNs requires a substantial investment.
                      This concern was raised by a number of large hospital systems. These
                      providers must change multiple computer systems at different facilities to accept
                      the UPN and maintain these systems.

               <	     Providers’ systems in general are not able to use bar codes.
                      Some hospitals told us that their computer systems were still using operating
                      systems as old as DOS and that there would need to be large system upgrades
                      to utilize bar codes and UPNs. We were unable to find any physician’s
                      practice that would be capable of using bar codes or UPNs.

               <	     Skepticism of the system.
                      The accounting department of one facility is skeptical of the system and the
                      charges resulting from the system, so the facility hired an auditor to double-
                      check all billings as they are produced.

               <	     Manufacturers are concerned about providing too much information
                      about their products.
                      At least one manufacturer told us that they were concerned that competitors
                      may attempt to submit false information about their products to existing
                      databases. The same manufacturer also told us that they did not want to
                      provide information that could be used by their competitors against them. They
                      also think they should not be required to provide information sufficient to make


Use of UPNs                                    11                                     OEI-07-99-00230
                      functional equivalency determinations when the organization making those
                      determinations could simply look in a company catalog.

               Sheer Number of Possible UPNs.
                     Universal Product Numbers are extremely sensitive. Although the UCC
                     recommends not assigning new UPNs for insignificant changes in products,
                     there is no prohibition against doing so. As such, the smallest change in the
                     product, including color, could result in the issuance of a new UPN. Therefore
                     it is possible that as products are updated, redesigned, and modified in other
                     ways, a new UPN could be assigned. One manufacturer and HCFA staff are
                     concerned that this could result in slight changes for nothing more than
                     marketing purposes or to game the system. Attempting to pay based on the
                     UPN itself would require a process to consider equivalencies and pricing for
                     massive numbers of items either on the repository or coming onto the repository
                     at any one time.

UPNs May Be Valuable To Medicare If Impediments Can Be
Overcome
Product Identification

        Most industry members agree that UPNs would allow for a number of advantages to both
        Medicare and the industry as a whole.

               <	     UPNs would allow Medicare to specifically identify the product being
                      billed.
                      This would be useful for determining Medicare coverage and appropriate
                      payment.

               <	     UPNs will assure that providers are looking at the same product for
                      both payment and medical review of items.
                      One hospital system noted they are experiencing problems analyzing the same
                      products among each of their 17 facilities.

               <	     UPNs could provide more efficient edits.
                      The ability to specifically identify the product could enable carrier edits to work
                      more efficiently.

               <	     UPNs could aid in fraud and abuse detection.
                      Individuals from HCFA and industry told us that UPNs would help detect fraud
                      and abuse if the system would provide for the independent and objective
                      indexing of the salient characteristics for products. UPNs could also reduce

Use of UPNs                                     12                                    OEI-07-99-00230
                      claims fraud. If listed on the claim, the UPN will specifically identify the
                      manufacturer and the type of product claimed, as compared to the current
                      system which relies on HCPCS codes which are not always product specific.

                      The UPN could be a valuable piece of additional evidence when trying to
                      prosecute a fraudulent provider. For instance, if the HCPCS for which the
                      provider has submitted a claim for payment is not accurate, it could be due to
                      the use of a mistaken code. However, when a provider also submits a UPN on
                      that claim form, it is more difficult to claim a mistake when the UPN is readily
                      identifiable.

Impediments to effective use of UPNs

        There are a number of impediments that must be overcome if UPNs are to be used by the
        Medicare program.

               <	     A standard national data repository does not exist.
                      Currently there is no nationally recognized database usable by all members of
                      the industry. There are a number of smaller databases, but none of them are
                      used industry wide. The HIBCC and UCC databases contain fewer than
                      500,000 UPNs. Others, such a those developed by Mitch Cooper &
                      Associates and St. Alexius Medical Center, are smaller and are not now used
                      by the industry as a whole.

               <	     There is insufficient information contained in the repositories.
                      In the HIBCC database, most commonly referred to as an industry standard
                      repository, there are only 80 character spaces for descriptive information. The
                      industry believes that this amount is sufficient, but those familiar with the current
                      databases indicated that it could be increased to 120 characters. Still, some
                      HCFA staff believe the available space is insufficient to provide the information
                      needed to identify the appropriate HCPCS code or to make determinations
                      concerning functional product equivalencies. A separate contractor would be
                      needed over and above the carrier to collect UPN data and to build a data
                      repository for these codes and their HCPCS equivalents. This would increase
                      the integrity of the information available to HCFA as well as assure access to it
                      by all providers. HCFA may need to be able to control the information
                      required on the database. Because space is limited, some information may be
                      of lesser value in determining product equivalencies than other information.
                      Further, industry may be reluctant to provide certain data if it is not specifically
                      mandated. However, information that HCFA finds of lesser value may be
                      needed by other industry members utilizing such a repository and, therefore,
                      determination of what information should be required would need to be a
                      cooperative effort.

Use of UPNs                                     13                                     OEI-07-99-00230
              <	   HCFA would need control of the system.
                   It may also be necessary for HCFA to be able to control various aspects of the
                   implementation of UPNs. Such concerns might include what type of
                   information is submitted to the database and the methodology used to assign
                   UPNs. Because suppliers vary in size and technology, HCFA may also need
                   to control the phasing in of such a system to allow less technical suppliers to
                   meet their systems needs. HCFA would also need to be able to determine who
                   may assign UPNs to products. This is necessary to ensure that all
                   manufacturers are treated fairly and that onerous membership costs and fees
                   are not incurred as a requisite to assign a UPN.

              <	   Many computer systems are inadequate.
                   Manufacturers, hospitals, and suppliers all cited inadequate systems as a
                   problem. Many hospitals are on older computer systems that would need
                   upgrading to accommodate UPNs and bar code technology. Manufacturers
                   also would need time to not only change their computer systems, but also their
                   packaging processes to accommodate changes in labels and boxes.

              <	   Bar codes are not applied to all medical equipment and supplies.
                   As indicated, UPNs are assigned and bar codes are applied to about
                   70 percent of medical/surgical supplies. If Medicare requires the inclusion of
                   UPNs on all claims forms, the most troublesome issue is who is required to bar
                   code. Manufacturers do not have a direct link to the Medicare program unless
                   they are also suppliers. Therefore, if manufacturers decide not to bar code their
                   products, suppliers must decide whether to purchase from another
                   manufacturer (provided the product is produced by another manufacturer) or
                   whether to bar code themselves. As the proposed legislation would require
                   manufacturers of medical equipment and supplies to assign UPNs to all their
                   products, this would also affect those manufacturers who do not sell products
                   to Medicare suppliers.

              <	   At this time, no payer requires UPNs for claims processing.
                   The largest government agency currently utilizing UPNs is the Department of
                   Defense. They advised us that the DOD has utilized UPNs for a number of
                   years, but only uses them for supply-chain management. We could not identify
                   any insurance or government payer currently requiring the inclusion of UPNs on
                   claims for payment. The State of California is considering, but has not
                   implemented, the use of UPNs in their claims forms.




Use of UPNs                                 14                                    OEI-07-99-00230
                                CONCLUSION

UPNs, While Promising, Are Not Ready To Be Adopted By The
Medicare Program
        In order for UPNs to be used by Medicare, it will be necessary to:

        S      address the specific impediments discussed above;

        S	     methodically implement important steps in utilizing UPNs, and conduct periodic
               assessment of their viability;

        S	     involve all major players fully in the process, including manufacturers, suppliers,
               distributors, the coding industry and HCFA; and

        S      provide adequate funding for planning and implementing this program.




Use of UPNs                                     15                                    OEI-07-99-00230
